           Millennium Challenge Corporation
           Reducing Poverty Through Growth



       OFFICE OF INSPECTOR GENERAL


Audit of the Millennium Challenge Corporation’s Efforts to
Establish Its Internal Control Structure

Report No. M-000-05-002-P

March 31, 2005




                          Washington, D.C.
                                            Millennium Challenge Corporation
                                            Reducing Poverty Through Growth



                               Office of Inspector General



                               March 31, 2005


                               MEMORANDUM
                               FOR:              Acting Vice President for Administration and Finance,
                                                 Millennium Challenge Corporation, Jonathan O. Bloom

                               FROM:             Assistant Inspector General for the Millennium Challenge
                                                 Corporation, Henry L. Barrett /s/

                               SUBJECT:          Audit of the Millennium Challenge Corporation’s Efforts to
                                                 Establish Its Internal Control Structure (Report No. M-000-05-
                                                 002-P)

                               This is our final report on the subject audit. In finalizing the report, we
                               considered your written comments on our draft report and included those
                               comments in their entirety in Appendix II of this report.

                               The report contains two recommendations for corrective action. Based on your
                               response to our draft report, we consider that a management decision has been
                               reached on each recommmendation. Final action for the recommendations must
                               be determined by MCC, and we ask that we be notified of MCC’s actions.

                               I appreciate the cooperation and courtesy extended to my staff throughout the
                               audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
[This page intentionally left blank.]
Table of   Summary of Results.................................................................................................5
Contents
           Background ..............................................................................................................5

           Audit Objective........................................................................................................6


           Audit Findings .........................................................................................................6

                      Has the Millennium Challenge Corporation implemented a
                      system of internal controls consistent with the requirements of the
                      Federal Managers’ Financial Integrity Act and Office of
                      Management and Budget guidance? ............................................................6

                                  Undocumented and Informal Internal Control Procedures ............7

                                  Evaluation of Internal Control System Not Performed ..................9

            Evaluation of Management Comments ................................................................13

            Appendix I-Scope and Methodology ...................................................................15

            Appendix II-Management Comments ..................................................................17




                                                                                                                                   3
    [This page intentionally left blank.]




4
Summary of   The Assistant Inspector General for the Millennium Challenge Corporation
Results      conducted this audit to determine if the Millennium Challenge Corporation
             (MCC) implemented a system of internal controls consistent with the
             requirements of the Federal Managers’ Financial Integrity Act and Office of
             Management and Budget guidance. The audit found that MCC had not fully
             implemented a system of internal controls consistent with the guidance (see page
             6).

             Although MCC had established a number of individual internal control
             procedures covering its administrative operations, it did not formalize or
             document its system of internal controls covering all aspects of its operations (see
             page 7). Additionally, MCC had not conducted an evaluation of the adequacy of
             its internal control system at its fiscal year end (see page 9). This report contains
             two recommendations to address these issues.

             In its response to our draft report, MCC agreed with the recommendations and
             explained its plans for implementing them. Therefore, we consider that a
             management has been reached on each recommendation (see page 13).
             Management comments are included in their entirety in Appendix II (see page
             17).

Background
             Internal controls are a major part of managing an organization and comprise the
             organization’s plans, policies, and procedures used to meet its mission, goals and
             objectives. Broadly speaking, internal controls include the plan of organization,
             methods and procedures adopted by management to ensure that its goals are met.
             They are used to provide reasonable assurance that (1) programs achieve their
             intended results, (2) resources are used consistent with the organization’s mission,
             (3) programs and resources are protected from fraud, waste and mismanagement,
             (4) laws and regulations are followed, and (5) reliable and timely information is
             obtained, maintained, reported and used for decision making.
             The importance of internal controls is addressed, both explicitly and implicitly, in
             various laws, regulations and Federal guidance. The Federal Managers’ Financial
             Integrity Act (FMFIA) of 1982 requires the heads of executive agencies to
             annually evaluate the adequacy of the agency’s internal accounting and
             administrative controls and report whether the controls meet Federal standards.
             The FMFIA’s requirements are extended to government corporations by the
             Government Corporation Control Act which requires the head of the management
             of a corporation to include a statement on internal accounting and administrative
             systems consistent with FMFIA requirements in the corporation’s annual
             management report to Congress.1 The Office of Management and Budget

             1
               The Government Corporation Control Act requires corporations to submit an annual
             management report to the Congress not later than 180 days after the end of the government
             corporation’s fiscal year.



                                                                                                    5
                 (OMB) provides guidance and reporting requirements for the annual internal
                 control evaluations.2 Lastly, the U.S. Comptroller General has established
                 standards for internal control in the Federal Government.3 Within these
                 mandates, Government organizations are expected to establish, assess, correct and
                 report on the adequacy of their internal controls.

                 The Millennium Challenge Corporation (MCC) was established in January 2004
                 as a new government corporation to provide development assistance to eligible
                 countries and was designed to support innovative strategies and to ensure
                 accountability for measurable results.

                 This audit was conducted to evaluate MCC’s efforts to establish its internal
                 control structure.

Audit            The Assistant Inspector General for the Millennium Challenge Corporation
Objective        (AIG/MCC) conducted this audit as a part of its fiscal year 2005 audit plan. The
                 objective of this audit was to answer the following question:

                         Has the Millennium Challenge Corporation implemented a
                         system of internal controls consistent with the requirements of
                         the Federal Managers’ Financial Integrity Act and Office of
                         Management and Budget guidance?

                 A description of the audit’s scope and methodology is contained in Appendix I.

Audit Findings    Although the Millennium Challenge Corporation (MCC) had formalized certain
                  of its internal control procedures for its administrative operations, it had not fully
                 implemented its internal control system for both its administrative and program
                 areas consistent with the requirements of the Federal Managers’ Financial
                 Integrity Act and Office of Management and Budget guidance.

                 At the time of our review, MCC had formalized eight MCC-specific
                 administrative internal control policies covering activities such as working hours,
                 employee benefits, use of government equipment, and government-leased
                 vehicles. These MCC-specific policies were distributed to its staff and posted on
                 its intranet. In areas where MCC-specific administrative procedures had not yet
                 been developed, MCC officials stated that they were generally following



                 2
                   Office of Management and Budget, Circular A-123, Management Accountability and Control
                 (Revised June 21, 1995).
                 3
                   U.S. General Accounting Office, Standards for Internal Control in the Federal Government,
                 GAO/AIMD-00-21.3.1 (November 1999). The General Accounting Office (GAO) changed its
                 name to the Government Accountability Office in 2004. The U.S. Comptroller General is the
                 head of the GAO.




6
policies and procedures applicable to Federal agencies government-wide, or
administrative procedures specific to other government agencies such as the
Department of State and the Department of Interior. MCC plans to tailor the
procedures for other government agencies, as appropriate, to reflect MCC’s
organizational setting and to take advantage of the flexibilities afforded MCC by
its authorizing legislation.

In the program area, MCC was in the process of designing internal controls to
mitigate risks. The controls are intended to ensure MCC’s proposed development
programs are congruent with MCC’s overall objectives, funds are managed
properly, procurements are undertaken in a fair, open and transparent manner, and
the programs are monitored and audited regularly. MCC’s controls in the
program area were still in draft format or still evolving at the time of our audit and
had yet to be tested in a live environment since no country compacts had been
signed.

Although MCC had taken the actions indicated above to establish its internal
control structure, it had not fully documented its internal control procedures nor
conducted the required annual evaluation of them. Below we discuss two areas
for improvement.


Undocumented and Informal
Internal Control Procedures

Summary: The U.S. Comptroller General’s Standards for Internal Control in the
Federal Government specify that a government organization’s internal controls
should be clearly documented. MCC’s internal control structure was largely
undocumented at the time of our audit although MCC was following extensive
informal or draft procedures. MCC had not taken the time to fully document its
internal control structure because it devoted most of its time and resources to
establishing its operations. Without documented internal control procedures,
MCC runs the risk of operating in an ineffective control environment that lends
itself to an array of vulnerabilities.

The U.S. Comptroller General’s Standards for Internal Control in the Federal
Government states that internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination. It further states that the documentation should appear
in management directives, administrative policies, or operating manuals and may
be in paper or electronic form. Additionally, all documentation and records
should be properly managed and maintained.

At the time of our audit, MCC was operating its organization with minimal
documented internal control procedures. Each MCC office was queried about




                                                                                    7
    internal control policies and procedures covering its specific activities.
    Consistently, each office stated that it had established informal internal controls
    but had not yet documented them or that it was following policies and procedures
    established by other government agencies.

    For example, in the administrative area, MCC’s Human Resources Office had
    established informal procedures for its hiring and recruiting practices but had not
    documented them and did not have a timeframe for completing the
    documentation. Also, MCC’s Controller’s Office stated that there were a litany of
    informal procedures covering much of its high risk environment but they have not
    been documented. MCC’s Controller stated he was reviewing different sources of
    internal control procedures to ensure that MCC adopts procedures that are in line
    with its operations. Further, the Information and Technology Office did not have
    any documented internal control procedures at the time of our audit, nor did the
    Chief Technology Officer (CTO) have a timeframe for documenting internal
    control procedures. The CTO stated that he was new to the government and was
    not familiar with government rules and regulations. However, after our fieldwork
    ended, the CTO informed us that he had set up computer security awareness
    procedures and plans to follow Department of State regulations for controls.

    For its program area, MCC had formalized and posted to its intranet website
    certain procedures or guidelines but, for the most part, it was operating under
    draft guidelines during the period leading up to the award of its first country
    agreements (compacts). MCC had developed a draft outline of the formal
    documents that should be prepared internally and the internal review points and
    approval levels that MCC would follow in the process of working with countries
    to develop their program proposals. Internal “transaction” teams were also
    employed in MCC’s due diligence process leading to the negotiation and award of
    a country compact. While MCC’s controls in the program area were largely
    informal or in draft form at the point of our audit, MCC’s initial working drafts of
    compact agreements evidenced that MCC was working toward agreements
    intended to meet MCC’s principles, including maintaining accountability.

    MCC had not documented its internal control system because as a newly created
    government corporation, MCC had committed most of its resources to
    establishing its operations. MCC officials stated that they lacked the additional
    resources needed to expend on documenting its procedures since they were still in
    the process of staffing up their organization. Another factor that precluded MCC
    from formalizing and documenting its internal control procedures was MCC’s
    decision to research other government agencies and corporations’ control
    procedures to determine how these other entities carried out similar functions and
    responsibilities in order to develop the best procedures that related to MCC’s
    environment.




8
However, without formalizing and documenting its internal control procedures,
MCC was not in compliance with the U.S. Comptroller General standards for
internal controls and did not necessarily have controls in place to assure itself that
transactions, responsibilities and other significant events were properly executed
and carried out as intended.

Documenting MCC’s internal control procedures should help ensure that
management’s directives and goals are carried out, funds are managed properly,
assets are safeguarded and programs achieve their intended results. MCC needs
to develop an approach for identifying and documenting both its administrative
and program controls and develop appropriate timelines for completing all phases
of the work. Therefore, we are making the following recommendation:

        Recommendation No. 1: We recommend that the Millennium
        Challenge Corporation formalize and document its internal
        control system covering its administrative and program
        operations. The Millennium Challenge Corporation should
        establish a timeline for completing this activity.


Evaluation of Internal Control
System Not Performed

Summary: The Government Corporation Control Act (Act) requires government
corporations to report on the adequacy of their internal control systems annually.
While the Act and Office of Management and Budget (OMB) guidance do not
state the “as of” date for such evaluations, OMB officials told us that the
evaluation should be made as of the end of a corporation’s fiscal year. MCC did
not evaluate its internal controls as of the end of its first fiscal year, because it was
not clear on when the evaluation needed to be done and because it was busy
establishing other aspects of its operations. As a result of not conducting an
evaluation of its internal controls as of its fiscal year end, MCC was not in
compliance with applicable regulations, and, as well, at the time of our audit, had
not yet thoroughly evaluated the adequacy of its control systems.

The Government Corporation Control Act requires government corporations to
submit an annual management report to Congress not later than 180 days after the
end of the corporation’s fiscal year. The management report is required to
include, among other things, a statement on internal accounting and
administrative control systems consistent with the requirements of the Federal




                                                                                       9
     Managers’ Financial Integrity Act (FMFIA). The FMFIA requires each executive
     agency (as opposed to a government corporation) to annually report its evaluation
     of its internal controls by December 31. OMB guidance4 similarly states that
     executive agencies are required to evaluate their internal controls annually and
     report by December 31. The OMB guidance also notes the requirement of the
     Government Corporation Control Act for a government corporation to include a
     statement on its internal controls in its annual management report to Congress.
     None of the above cited guidance specifies the “as of” date for the internal control
     evaluations although Federal agencies use a fiscal year end date for their
     evaluations.

     We asked OMB for clarification on the “as date” for a government corporation’s
     annual evaluation of its internal controls. According to an OMB official, the
     evaluation of MCC’s internal controls should have been conducted at the end of
     the corporation’s fiscal year end (September 30) and been an evaluation of the
     controls in place at that time. They stated that government corporations have the
     option of reporting on their controls in a separate report due December 31, like
     most Federal executive agencies, or the evaluation can be included in the annual
     management report due not later than 180 days after the end of the corporation’s
     fiscal year. However, regardless of the reporting date that a government
     corporation chooses, the evaluation of the controls should be as of its fiscal year
     end.

     MCC officials acknowledged that they had not evaluated their internal controls as
     of September 30, but noted that the applicable guidance is not clear on when the
     evaluation should be done and that MCC is not required to report on its internal
     controls until it submits its annual management report on March 31. They stated
     that they planned to meet the March 31 reporting date. Further, they stated that as
     of September 30 there would have been no high risk areas to report since MCC
     had only been in operation for approximately nine months and no agreements for
     country assistance had been reached.

     As a result of its misperception of the applicable “as of” date for conducting an
     evaluation and because MCC was busy with other aspects of establishing its
     organization, MCC had not evaluated its internal controls at the end of its first
     year (fiscal year 2004). And, as of the time of our audit, it still had not formally
     evaluated its internal control system to assess whether it is properly designed to
     control MCC’s operations and programs and to mitigate significant risks.

     While MCC should get back on the regular evaluation cycle at the end of fiscal
     year 2005, we believe that it would make more sense for MCC to meet the fiscal



     4
       Office of Management and Budget Circular A-123 Management Accountability and Control
     (Revised June 21, 1995).



10
year 2004 reporting requirement on its internal controls by evaluating its controls
as they presently exist. Therefore, we are making the following recommendation.

          Recommendation No. 2 - We recommend that the
          Millennium Challenge Corporation conduct an evaluation of
          its internal control system consistent with the requirements
          of the Federal Managers’ Financial Integrity Act and Office
          of Management and Budget implementing guidance.




                                                                                11
     [This page intentionally left blank.]




12
Evaluation of   MCC provided written comments to our draft report that are included in their
Management      entirety in Appendix II.       In its response, MCC agreed with the two
                recommendations in the draft report.
Comments
                For Recommendation No. 1, MCC plans to institute internal control procedures
                for areas that it considers critical to its operations and/or have a material impact
                on its financial statements. In its program area, MCC identified the compact
                development as a critical area. MCC plans to establish internal controls in this
                area through awarding the compact. However, MCC also needs to consider post
                compact award activities such as monitoring and evaluation of the compact
                activities critical and institute internal controls to mitigate risks in this area. In
                addition, MCC still needs to establish a timeline for formalizing and documenting
                its internal controls.

                For Recommendation No. 2, MCC plans to perform a formal review of its internal
                controls in fiscal year 2005 consistent with the Federal Managers’ Financial
                Integrity Act and report on the review by November 15, 2005.

                We agree with MCC’s planned actions and therefore consider that a management
                decision has been reached on Recommendations Nos. 1 and 2.




                                                                                                   13
     [This page intentionally left blank.]




14
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Assistant Inspector General for the Millennium Challenge Corporation
              conducted this audit in accordance with generally accepted government auditing
              standards to determine if the Millennium Challenge Corporation implemented a
              system of internal controls consistent with requirements outlined in the Federal
              Managers’ Financial Integrity Act and Office of Management and Budget
              guidance. This audit was conducted to evaluate the efforts MCC had taken to
              establish its internal control structure. We did not attempt to assess the adequacy
              or the effectiveness of MCC’s internal controls. The audit was conducted at MCC
              headquarters in Arlington, Virginia from November 17, 2004, to January 14,
              2005.

              Methodology

              In order to gain an understanding of MCC’s efforts to establish its internal control
              structure, we held discussions with key MCC officials. We also performed the
              following steps:

                 •    Reviewed relevant laws, regulations and guidance to gain an
                      understanding of the requirements for internal controls within the Federal
                      government.

                 •    Obtained an understanding of internal controls related to MCC’s overall
                      operations and the plans MCC had for designing controls in their program
                      area.

                 •    Reviewed MCC’s internal policies and procedures covering its
                      administrative operations.

                 •    Reviewed MCC’s organization charts.

                 •    Relied on the work of our contracted financial statement auditors for
                      reviewing controls covering MCC’s financial activities.




                                                                                               15
     [This page intentionally left blank]




16
                                                                                              Appendix II


Management
Comments


              Millennium Challenge Corporation
              Reducing Poverty Through Growth



March 28, 2005

Henry L. Barrett
Assistant Inspector General
U.S. Agency for International Development
AIG/MCC-Room 8.09.63, RRB
1300 Pennsylvania Avenue, NW
Washington, DC 20523

       Re:     Draft Report on the Audit of the Millennium Challenge Corporation’s Efforts to
               Establish Its Internal Control Structure (Report No. M-000-05-00X-P)

Dear Mr. Barrett:

Please find herewith the Millennium Challenge Corporation’s (MCC) comments on
recommendation numbers 1 and 2 of draft report No. M-000-05-00X-P).

Recommendation No. 1: We recommend that the Millennium Challenge
Corporation formalize and document its internal control system covering its
administrative and program operations. The Millennium Challenge Corporation
should establish a timeline for completing this activity.

Comments: We agree with this recommendation. MCC’s plan is to institute internal control
procedures for the following areas that are critical to its operations and/or have material impact
on its financial statements as follows:

       Human resources (hiring and recruitment practices);
       Staff Costs:
       Travel:
       Information Technology:
       Compact Development through Compact Award:
       Compliance with Laws and Regulations:
       Contract Management/Administration
                                                                                                      17
                                         [Tel] (202) 521-3600 I (202) 521-3700 [Fax]
                                                     1000 Wilson Boulevard
                                                        P.O. Box 12825
                                                   Arlington, VA 22219-2825
                                                         www.mcc.gov
     Recommendation No. 2 - We recommend that the Millennium Challenge
     Corporation conduct an evaluation of its internal control system consistent with the
     requirements of the Federal Manager’s Financial Integrity Act and Office of
     Management and Budget implementing guidance.

     Comments: MCC expects to perform a formal FMFIA review in FY 2005 and submit a report
     by November 15, 2005. This assessment is expected to evaluate, amongst other factors, the areas
     identified above.

     Sincerely,

        /s/

     Jonathan O. Bloom
     Senior Advisor




18
